<html>
<title> - RECOGNIZING THE 57TH ANNIVERSARY OF THE INDEPENDENCE OF THE STATE OF ISRAEL; URGING WITHDRAWAL OF SYRIAN FORCES FROM LEBANON, SUPPORT FOR DEMOCRATIC ELECTIONS IN LEBANON, AND FOR OTHER PURPOSES; EXPRESSING SENSE OF THE HOUSE REGARDING MANIFESTATIONS OF ANTI-SEMITISM BY U.N. MEMBER STATES, AND FOR OTHER PURPOSES; AND WELCOMING THE PRESIDENT OF AFGHANISTAN ON HIS MAY 2005 VISIT TO THE U.S., AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
               RECOGNIZING THE 57TH ANNIVERSARY OF THE INDEPENDENCE 
                OF THE STATE OF ISRAEL; URGING WITHDRAWAL OF SYRIAN 
               FORCES FROM LEBANON, SUPPORT FOR DEMOCRATIC ELECTIONS 
                   IN LEBANON, AND FOR OTHER PURPOSES; EXPRESSING 
               SENSE OF THE HOUSE REGARDING MANIFESTATIONS OF                                    
                  ANTI-SEMITISM BY U.N. MEMBER STATES, AND FOR OTHER 
               PURPOSES; AND WELCOMING THE PRESIDENT OF AFGHANISTAN 
                  ON HIS MAY 2005 VISIT TO THE U.S., AND FOR OTHER 
                                      PURPOSES 
=======================================================================

                                       MARKUP 

                                     BEFORE THE 

                         SUBCOMMITTEE ON THE MIDDLE EAST 
                                   AND CENTRAL ASIA 

                                       OF THE 

                                    COMMITTEE ON 
                                INTERNATIONAL RELATIONS 
                                HOUSE OF REPRESENTATIVES 

                               ONE HUNDRED NINTH CONGRESS 

                                      FIRST SESSION 

                                           ON 

                  H. Con. Res. 149, H. Res. 273, H. Res. 282, and 
                                 H. Con. Res. 153 
                                      -------
                                   MAY 18, 2005 
                                      -------
                                Serial No. 109-53 
                                      -------

    Printed for the use of the Committee on International Relations 

                    Available via the World Wide Web:
              http://www.hollse.gov/international_relations 
                                      -----
                        U.S. GOVERNMENT PRINTING OFFICE 
21-305PDF                       WASHINGTON : 2005 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                         Washington, DC 20402-0001 


[TEXT NOT AVAILABLE REFER TO PDF]

</pre></body></html>
